<html>
<title> - AXIS OF ABUSE: U.S. HUMAN RIGHTS POLICY TOWARD IRAN AND SYRIA, PART 2</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 AXIS OF ABUSE: U.S. HUMAN RIGHTS POLICY TOWARD IRAN AND SYRIA, PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2011

                               __________

                           Serial No. 112-73

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
68-447                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dfc8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Singh, managing director, Washington Institute for 
  Near East Policy...............................................     6
Mr. Mehdi Khalaji, senior fellow, Washington Institute for Near 
  East Policy....................................................    17
Mr. Alireza Nader, international policy analyst, RAND Corporation    25
Mr. Tony Badran, research fellow, Foundation for the Defense of 
  Democracies....................................................    32
Jon B. Alterman, Ph.D., director and senior fellow of the Middle 
  East Program, Center for Strategic and International Studies...    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Singh: Prepared statement............................     9
Mr. Mehdi Khalaji: Prepared statement............................    19
Mr. Alireza Nader: Prepared statement............................    27
Mr. Tony Badran: Prepared statement..............................    34
Jon B. Alterman, Ph.D.: Prepared statement.......................    41

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57


 AXIS OF ABUSE: U.S. HUMAN RIGHTS POLICY TOWARD IRAN AND SYRIA, PART 2

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order. I want to 
thank everyone for being here this afternoon. I apologize for 
being a couple minutes late. We had a big conference over 
there. I left early to get here. And I want to thank Mr. 
Ackerman for being here so early. Thank you.
    I want to welcome my colleagues to this hearing of the 
Subcommittee on the Middle East and South Asia, as well as our 
witnesses here and those in the audience. As our witnesses 
noted in their written statements, the human rights abuses 
being perpetrated at the hands of regimes in Tehran and 
Damascus are as horrifying as they are widespread.
    In the aftermath of the stolen June 2009 so-called election 
in Tehran, the world watched as the Iranian regime beat, 
tortured, and raped and murdered its way through the protest 
that followed. Just over 6 months ago Syria, the Iranian 
regime's closest ally in the region, joined Tehran in its 
ruthless repression of prodemocracy protests.
    As protests intensified, the Assad regime initiated a 
brutal crackdown that continues even as we speak. It is now 
estimated that over 2,700 Syrians have been killed and reports 
coming out of Syria speak of unconscionably heinous human 
rights abuses.
    Today's hearing, however, was called to examine U.S. 
policy. Two months ago this subcommittee had the privilege of 
hearing Assistant Secretaries Feltman and Posner discuss the 
Obama administration's human rights policies toward Iran and 
Syria. Since our last meeting, the Obama administration has 
taken a number of steps for which they deserve credit, 
especially on Syria.
    Although it took far too much time and far too many dead 
bodies, the administration has finally come out and called for 
Bashar al-Asasad's departure from power. It also implemented 
sanctions against various high-ranking Syrian regime 
authorities, many of which have been mirrored by our allies 
abroad.
    Unfortunately, despite these recent developments, my 
concerns about our policy remains. This administration, the 
Obama administration human rights policies toward Iran and 
Syria have been, in my opinion, both feeble and late. Rather 
than seizing the historic opportunity presented to it, the 
administration dithers by slowly inching toward challenging the 
legitimacy of these regimes in any meaningful way. Why, for 
example, have we sanctioned the leadership in Damascus and not 
the leadership in Tehran?
    When the administration does take action, it is usually in 
the form of a strong statement such as President Obama's 
statement at the State Department in May. Yesterday at the 
General Assembly, for example, the President noted that we 
have, ``sanctioned those who trample on human rights abroad.''
    But we haven't. At least not thoroughly enough. Indeed my 
concern is not as much with what the administration is doing as 
it is with what the administration is not doing. The result is 
a growing disconnect between our words and our actions.
    As I am sure our witnesses will discuss, there are many 
steps which we should be taking which we are not, individuals 
we should be sanctioning, opposition groups we should be 
standing with, and regimes we should be condemning at every 
possible opportunity. That the administration continues to 
avoid calling for a transition to a democratic government in 
Iran is evidence of one of two possibilities: Either it still 
believes that a grand bargain on the illicit nuclear program is 
possible, or it is concerned that to do so will, like in Libya, 
create a situation in which it must then ensure that the regime 
actually falls.
    The fine line that the administration is walking by 
condemning, but not seriously challenging the regime in Tehran, 
puts it in an untenable position. And from the outside it 
appears to be hedging rather than leading. And although the 
administration may think that to do so puts itself in an 
advantageous position, it seriously underestimates the impact 
its actions, or lack thereof, have on actual outcomes.
    Indeed, the perception that calling for a democratic 
transition requires U.S. military operations to forcibly depose 
those in power is an excuse to avoid making a more permanent 
break with regimes like the one in Tehran. Words, like many 
things, have a currency, and that currency is action. To 
highlight human rights abuses and then sanction only 11 
individuals and 3 entities is unacceptable. To vacillate 
between condemning the Iranian regime and then later offering 
it a lifeline pits us against the people of those countries.
    I fear, however, these missteps reflect a deeper problem: 
That the administration lacks any overarching strategy toward 
the region. The administration is fond of saying that although 
its foreign policy is guided by core principles such as the 
promotion of democracy and respect for human rights, each 
country is different and, as such, requires a tailored 
approach. Although it is certainly true that no two countries 
have the identical set of circumstances, this argument must not 
be an excuse for inaction or lack of strategic vision.
    Until very recently, the Obama administration's policy 
toward Iran and Syria was characterized chiefly by its 
engagement with the ruling regimes. Although I did not agree 
with this policy at the time, it is all the more wrong today. 
The Obama administration must realize that the U.S. can no 
longer do business with either of these regimes, they are both 
beyond salvation.
    [The prepared statement of Mr. Chabot follows:]

    ******** INSERT 1-1 ********

    Mr. Chabot. At this time I would like to recognize the 
distinguished gentleman, the ranking member from New York, my 
colleague and friend Mr. Ackerman, for 5 minutes.
    Mr. Ackerman. I thank the chairman and appreciate his 
remarks.
    I would like to thank him for scheduling this second 
hearing on the subject of human rights in Syria and Iran.
    While much of the world's attention is focused on the 
Palestinian's foolish and dangerous gambit to find a shortcut 
to statehood at the United Nations, the violence in Syria and 
the ongoing oppression in Iran, as well as that country's 
illegitimate nuclear ambitions which must be stopped, continue 
unabated and thrive in the absence of focused international 
attention.
    As a global power and guarantor of security in the Middle 
East, the United States can't afford to take timeouts on 
critical issues such as these. The tyrants, torturers, and 
theocrats would all prefer we did. But our interest and 
responsibilities require us to be able to walk and chew gum at 
the same time, so they say.
    Our interests in the Middle East are varied, but all of 
them are improved by the weakening of the regimes in Tehran and 
Damascus, and all would be significantly aided by the collapse 
of the axis between Syria and Iran. Whether it is aiding 
Israel's search for peace and security, or protecting Lebanon's 
sovereignty, or preventing Iranian hegemony, or undercutting 
Hezbollah and Hamas, or nurturing Iraq's development, or 
sustaining our partnership with Turkey, or just promoting the 
spread of democracy and human rights, every loss for these 
regimes is a gain for us and innocent people as well throughout 
the region.
    The strategic partnership between these two criminal 
regimes has produced instability, terror, and violence in 
Lebanon, Israel, and Iraq, as well as frontally challenging the 
nuclear nonproliferation regime.
    These two disgraceful, blood-soaked regimes must, and I 
believe they will, end up on history's trash heap with other 
discarded and disgraced models of government based on coercion, 
violence, and brutality. Iran's Ayatollahs will not rule Iran 
forever, and Bashar al-Asssad's days in Syria are likewise 
numbered. The collapse and failure of these regimes, when it 
occurs, will not be the product of our efforts or our 
intervention, but we will surely welcome these developments 
when they occur.
    The jails or nooses that will hold the remains of Iran's 
misanthropic theocrats or the Assad mafia will be in the hands 
of free Iranians and Syrians, and we will celebrate from afar 
their liberation from the darkness of tyranny.
    The question for us today is twofold: First, to consider 
what options are available for us to aid the people of Syria 
and Iran in their struggle to free themselves from the 
insidious parasites that have seized control of their 
government; and second, to think about the strategic 
implications of the Arab Spring on these two countries and 
their so-called ``axis of resistance,'' which has caused so 
much destruction in the region.
    When it comes to providing direct aid to the people of 
Syria and Iran, I am leery about our prospects of doing too 
much. A great deal of our contribution to the freedom of these 
nations will come in the form of stringent economic and 
political sanctions to choke the life out of these oppressive 
regimes and prevent their efforts to acquire or proliferate 
weapons of mass destruction.
    As much assistance as we can provide we should make 
available. We should provide technical assistance to undermine 
government control and surveillance of cyberspace. We should 
use the influence of the United States to name and shame and 
punish companies that break or backfill sanctions, or that 
provide critical enabling technologies or consulting services 
to the Syrian and Iranian mechanisms of oppression. We should 
help facilitate efforts by Iranians, Syrians, to organize 
themselves and encourage cooperation between different groups 
with the same objective of freedom. We must continue to 
advocate universal human rights and rule of law as essential 
underpinnings for true democracy.
    But as essential as speaking for what we support, we must 
also denounce these regimes for their repression at home and 
their instigation of violence and terrorism abroad. Constantly 
pointing out that these regimes are devoid of legitimacy, that 
their leaders are murderers and torturers of innocents is not 
an expression of our opinion, it is a statement of fact. 
Ayatollah Khomeini is not a cleric, he is a butcher. Bashar al-
Assad is not a political leader, he is a mob boss.
    The motives of protesters in Syria and their predecessors 
in Iran are fundamentally the same as those of people 
everywhere; they want democracy, freedom, dignity, jobs, and 
respect for their human civil and political rights.
    These things, we Americans know, are not gifts from 
governments to the people, but they are the very rationale for 
people to institute governments in the first place. These ideas 
which empowered our own Revolution are now transforming the 
Middle East, and we should have no compunctions about speeding 
the work in Syria and Iran.
    I thank the chairman for the time, and the witnesses who I 
look forward to reviewing their testimony. And I apologize, I 
am going to be shuffling back and forth between two hearings at 
this time.
    Mr. Chabot. Thank you very much. We appreciate your opening 
statement, Mr. Ackerman. And let me mention that my colleagues 
are in a meeting now in the Capitol Building, going over the 
fact that our keeping the government funded for the next 6 or 7 
weeks went down in flames yesterday. And what do we do, where 
do we go from here? And that was sort of a problem. So that is 
where they are. We will probably have members trickle in.
    We also will have votes on the floor in the very near 
future as well. Rather than keep everyone waiting, we thought 
we would go ahead and move and then the members will be able to 
hear your testimony and read your statements as well at their 
own leisure.
    So without further ado, I would like to go ahead and 
introduce our distinguished panel here this afternoon. If I 
mispronounce any names, please accept apologies in advance.
    We first have Mr. Michael Singh, who is the managing 
director of the Washington Institute and a former senior 
director for Middle East Affairs at the National Security 
Council. He served in the NSC for 3 years as senior director 
for Middle East Affairs, and as director for Iran and for 
Lebanon, Syria, Egypt and North Africa. Previously Mr. Singh 
served as special assistant to Secretary of State Condoleezza 
Rice and Colin Powell, and was staff assistant to then-
Ambassador Daniel Kurtzer at the U.S. Embassy in Tel Aviv. A 
member of the Harvard International Review's board of advisors, 
Mr. Singh has written extensively on Iran, the Israeli-
Palestinian conflict, and U.S. National Security Strategy and 
Management. Mr. Singh holds an M.B.A. from Harvard University 
and earned his B.A. at Princeton University. We welcome you 
here this afternoon.
    Mr. Mehdi Khalaji is a senior fellow at the Washington 
Institute for Near East Policy, focusing on the politics of 
Iran and Shiite groups in the Middle East. Prior to his work at 
the Washington Institute, he was a political analyst on Iranian 
affairs for BBC-Persian, and later became a broadcaster for the 
Prague-based radio Farda. Mr. Khalaji is the author of five 
books. His most recent book, ``The New Order of the Clerical 
Establishment in Iran,'' written in Farsi, was published in 
2010, and we hope it is a big seller.
    And our next witness is Alireza Nader who is an 
international policy analyst at the Rand Corporation and the 
author of ``The Next Supreme Leader Succession in the Islamic 
Republic of Iran 2011.'' His research has focused on Iran's 
political dynamics, elite decision making, and Iranian foreign 
policy. His commentaries and articles have appeared in a 
variety of publications and he is widely cited by the U.S. and 
international media. Prior to joining RAND, Nader served as a 
research analyst at the Center for Naval Analysis. He is a 
native speaker of Farsi, and we welcome you here this afternoon 
as well.
    Next is Tony Badran who a research fellow at the--you know 
I am going to butcher your name, then, if I got all of these 
right--at the Foundation for Defense of Democracies (FDD) in 
Washington, DC. He focuses on Lebanon, Syria, and Hezbollah. 
His research includes U.S. policy toward Lebanon and Syria and 
Syrian foreign policy. Mr. Badran's other research has dealt 
with Syria's use of information warfare as well as with the 
Syrian opposition movement. Mr. Badran also specializes in 
Lebanese affairs and Islamic groups in the Levant. Mr. Badran 
appears regularly in the media both in the U.S. and abroad. Mr. 
Badran is currently completing his doctorate at American 
University. He is fluent in English, French, Arabic, and Greek 
and has working knowledge of German and Hebrew. Thank you so 
much for being here this afternoon.
    Last but not least, we have Jon B. Alterman, who is the 
director and senior fellow of the Middle East program at CSIS. 
Prior to joining CSIS, he served as a member of the policy 
planning staff at the Department of State and as a special 
assistant to the Assistant Secretary of State for Near Eastern 
Affairs. He is member of the Chief of Naval Operations 
executive panel and served as an expert advisor to the Iraq 
study group, also known as the Baker-Hamilton Commission. In 
addition, he teaches Middle Eastern studies at the Johns 
Hopkins school of Advanced and International Studies and George 
Washington University. Before entering government he was a 
scholar at the U.S. Institute of Peace and at the Washington 
Institute for Near East Policy. From 1993 to 1997, Alterman was 
an award-winning teacher at Harvard University where he 
received his Ph.D. in history. He also worked as a legislative 
aide to Senator Daniel P. Moynahan, Democrat, New York, 
responsible for foreign policy and defense.
    As I said, we have a very distinguished panel here this 
afternoon. It is obvious just by reading their bios. As I am 
sure the members of the panel may be aware, we have a 5-minute 
rule here. You have 5 minutes to address the committee. There 
is a lighting system. The yellow light will come on when 4 of 
the 5 minutes is up, and a red light comes on when you are 
done. We would ask you to conclude by that time if at all 
possible.
    So, Mr. Singh, we will begin with you.

 STATEMENT OF MR. MICHAEL SINGH, MANAGING DIRECTOR, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Singh. Thank you very much, Mr. Chairman, Ranking 
Member Ackerman, and distinguished members of the committee. 
Thanks very much for the opportunity to talk about the alarming 
state of human rights and freedom in Iran and Syria. It is a 
matter not only of moral urgency but also vital national 
security importance to the United States.
    I am going to deliver a condensed version of my remarks in 
the interest of time. I would like to discuss the role that the 
systematic abuses of human rights play in the strategy of these 
two countries. We need to be clear, this is not a recent 
phenomenon in Iran or Syria, nor are any human rights 
violations there, some sort of excessive--just an excessive 
response to the recent uprisings in these countries.
    These violations are not deviations from normal practice 
for these regimes. These are normal practices for these 
regimes. It is a matter of policy to abuse human rights both 
for Tehran and Damascus, and these things are instrumental in 
the establishment and maintenance of control, which is at the 
heart of their versions of authoritarianism.
    It is vital that we in the U.S. foreign policy community 
arrive at a proper understanding for the nature of the regimes 
in Tehran and Damascus, and therefore why they engage in these 
atrocious human rights abuses we are here to discuss. The 
abuses are fundamentally about establishing and maintaining 
control and are common to most authoritarian regimes, past and 
present, in one form or another.
    We must not only condemn the abuses that are a symptom of 
this authoritarianism, but the systems themselves which give 
rise to them. We must not only seek to prevent the abuses from 
happening, but to break the control of these regimes over their 
populations. Opposing human rights abuses in Iran and Syria, if 
such opposition is to be meaningful, means supporting democracy 
in these countries.
    At first glance, these two regimes, Iran and Syria, seem 
quite different. One is a radical secular regime in Syria, one 
a radical religious regime in Iran. Yet these regimes are close 
allies, and in many ways their superficial dissimilarities mask 
fundamental similarities underneath the surface. Like so many 
authoritarian regimes, both of their systems of government are 
based on careful cultivation of certain illusions. I want to 
briefly mention three illusions, and then talk about what we 
can do.
    The first is the illusion of democracy. Despite their 
deeply autocratic natures, both the Syrian and Iranian regimes 
have adopted the language and trappings of democracy which is 
troublingly common in modern authoritarian states. For its 
part, Syria has an elected Parliament and has a President who 
is confirmed, quote-unquote, by a referendum. Despite the fact 
that they have these trappings of democracy, they still have 
manipulation. A ridiculous 97.62 percent of Syrians reportedly 
voted to confirm President Assad in the last Presidential 
referendum.
    Iran has the same democratic pretensions. It holds 
elections for both the Presidency as well as the Parliament, 
but in both cases there are parallel structures which are 
unelected and which trump the supposedly elected officials; 
that is, the Supreme Leader and the Guardian Council.
    Even with these authoritarian safeguards in place, however, 
Iranian leaders still feel compelled to manipulate the results 
of these elections despite the fact the elected officials have 
little power. We saw this in June 2009 with the rigged 
Presidential election to which you referred, Mr. Chairman.
    To be clear, however, even these trappings of democracy, 
meager as they may be, are illusory. True power in Iran and 
Syria lies not in the hands of elected officials, but with 
small cliques who enjoy the backing of massive and well-
rewarded security apparatuses.
    The second illusion is the illusion of prosperity. Both of 
these regimes have long-trumpeted a message of wealth 
redistribution, of championing the poor and dispossessed, and 
they still propound this message. We have seen this especially 
with Iranian President Ahmadinejad. He was mocked in Iran 
during a Presidential election for handing out potatoes in the 
countryside, but in fact he was able to generate some support 
through this sort of populism.
    It is essential as well to the Supreme Leader of Iran, who 
talks a lot about class warfare in the way that he frames 
issues to his population. The reality, of course, is completely 
different. Despite the massive national resource wealth in Iran 
and despite the relatively significant economic growth that has 
happened in Syria, both of these countries are riddled with 
economic problems, poverty, income inequality, unemployment, 
and of course have massive corruption. They rank 127th and 
146th, Syria and Iran respectively, out of 178 countries, 
according to Transparency International's corruption 
perceptions index.
    Third is the illusion of stability. Both of these countries 
have known only two rulers apiece over the last several decades 
and both of these men, Bashar al-Assad and Ali Khamenei, 
Supreme Leader of Iran, have managed to increase their power 
over their tenures rather than see it wane. In a region notable 
for its tumult, these leaders can claim, superficially at 
least, stability in their countries. But this is also illusory, 
because they lack any mechanisms from which to release 
pressure, pressure for political change, pressure that comes 
from economic discontent. And so the way they deal with this 
pressure is, of course, through repression and through human 
rights abuses which we are here to talk about.
    The accomplishment of the protesters and the opposition in 
Syria and Iran is not just coming out of the streets and not 
just facing the bullets, which they have done courageously, 
especially in Syria, over these last since 6 months, but also 
in Iran after the June 2009 elections. Their great 
accomplishment is they have shattered these illusions and have 
exposed these illusions, and these regimes can no longer claim 
to be democratic, prosperous, or stable. And they won't be able 
to reconstruct those illusions or those images.
    Let me just say very briefly what the United States can do 
to support them in trying to expose these illusions and trying 
to expose what the regimes truly are. First of all----
    Mr. Chabot. We want to follow up in questions, because we 
have gone over 5 full minutes at this point. We want to make 
sure we have enough time. We are going to be called for votes, 
but hopefully I will ask you that end question, what were your 
conclusions going to be? Maybe start off with that.
    [The prepared statement of Mr. Singh follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Mr. Khalaji, you are next and we would ask the 
members, if possible, to stay within the 5 minutes. Thank you 
very much.

   STATEMENT OF MR. MEHDI KHALAJI, SENIOR FELLOW, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Khalaji. Mr. Chairman, Ranking Member Ackerman, 
distinguished members of the committee, thanks very much for 
providing me this great opportunity to witness on the critical 
situation of human rights in Iran. I am not going to read my 
written testimony. I would like to summarize it and especially 
emphasize on two major points. The announcement by U.S. 
Government and other Western governments in condemning Iran's 
violation of human rights are very effective and necessary. But 
I think that it is not enough, because the problem in Iran is 
not accidental violation of human rights. The violation of 
human rights is systematic and especially it is coming from the 
legal system of the country. For example, despite the fact that 
Iran has signed the International Convention of Children's 
Rights, Iran continues to execute teenagers and underage people 
for various accusations. Yesterday in Karaj City near Tehran, a 
17-year-old teenager was executed on the streets before the 
eyes of 15,000 people. So the problem is that the legal system 
of Iran legitimates such violations of human rights. The other 
example is stoning women and men for committing adultery.
    Another important example is the anti-Bahai policies of the 
government. You know that the Iranian legal system is against 
Bahais and it deprives them of their basic rights. So it is 
very important not just to react to specific cases of the 
violation of human rights, but we have to encourage Iranian 
regimes to reform and change the legal system to adapt it more 
to human rights and democratic rules.
    Another issue is that the sanctions on individuals for 
being involved in violation of human rights. It is very 
important. Especially a joint effort by the United States and 
European Union have been very effective. But first of all we 
have to publicize cases that these people have applied for visa 
and their visa application was rejected. In other words, we 
have to get benefit from these sanctions. We cannot just 
sanction them. Wee have to tell Iranian people and other people 
in the region that their activities and human rights activities 
have practical consequences.
    The other issue is that it is good to target the 
Revolutionary Guard, the Basij militia, Iranian police, or 
Iranian judiciary officials who violate human rights in Iran. 
But we all know that the power in Iran is centralized around 
the Supreme Leader, and this is Supreme Leader Ayatollah 
Khamenei who is in charge of domestic and foreign policy. And 
he is the final decision maker. The violation of human rights 
is primarily initiated and implemented by the Office of the 
Supreme Leader.
    And I would suggest that important members of this office 
should be sanctioned, like Hossein Shariatmadari, Khamenei's 
representative at Kayhan newspaper, who is a famous person in 
oppressing critics, intellectuals, students and women's rights 
activists.
    Mojtaba Khamenei, the son of Khamenei, who mainly runs his 
office.
    Asghar Mir Hrjazi, another important member of his office, 
who is the security deputy of the office.
    Vahid Haghanian, who is the right-hand person for Ayatollah 
Khamenei.
    Muhammad Shirazi, who is the military advisor of Ayatollah 
Khamenei, and he supervises both the Revolutionary Guard and 
Army.
    Ahmad Marvi, who is head of the clergy department in the 
Supreme Leader's office. And especially he is in charge of 
intimidating political opposition inside and outside Iran.
    And finally, Hossein Mohammadi, who is in charge of 
designing censorship on different kind of media.
    I think these are important people that should be singled 
out and be subject of sanction by the United States and 
European Union. Thank you.
    Mr. Chabot. Thank you very much. And I especially thank you 
for being so specific about who those are that you believe 
should be sanctioned.
    [The prepared statement of Mr. Khalaji follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. I would like to note the presence of the 
gentleman from Massachusetts, Mr. Keating, who has joined us 
here this afternoon.
    Mr. Nader, you are recognized for 5 minutes.

 STATEMENT OF MR. ALIREZA NADER, INTERNATIONAL POLICY ANALYST, 
                        RAND CORPORATION

    Mr. Nader. Chairman Chabot, Ranking Member Ackerman, 
distinguished members of the subcommittee, thank you for 
inviting me to appear before you today to discuss Islamic 
Republic of Iran's human rights abuses. In addition I would 
like to discuss the Iranian regime's behavior in light of the 
Arab Spring, and current state and the future prospects of the 
opposition Green Movement. I will conclude with U.S. policy 
recommendations. And I will summarize my written testimony.
    The Islamic Republic is one of the worst human rights 
abusers in the Middle East. The 2009 Iranian Presidential 
election, widely perceived in Iran as fraudulent, led to a 
dramatic increase in Iranian State repression. Iranians who 
opposed a clerical-led regime are routinely harassed, jailed, 
tortured, raped and executed. The Iranian regime has stepped up 
its use of force as it faces upcoming parliamentary elections 
in March 2012 and Presidential elections in 2013 that could 
become occasions for public demonstrations. The regime is also 
afflicted by deep internal divisions.
    The Arab Spring has also heightened the regime's fears of 
similar revolts in Iran. The Islamic Republic has depicted the 
downfall of pro-American governments in Tunisia and Egypt as a 
major setback to American power in the region. That has also 
claimed that Iran's own revolution served as the Arab Spring's 
source of inspiration. But the reality is quite different. Arab 
populations are increasingly critical of Islamic Republic for 
poor treatment of Iranians and for the support it provides 
Basar al-Assad's regime as it commits mass violence against the 
Syrian people.
    More importantly, the Iranian regime remains vulnerable to 
the very same forces that have led to the toppling of Arab 
dictatorships. Although the regime may have been successful in 
silencing the Green Movement's leadership, it has not been able 
to crush Iranian aspirations for freer and more democratic 
system of government.
    Like many of their Arab neighbors, Iranians face a daily 
indignity bred by an increasingly oppressive system. Women in 
Iran are denied equal rights despite their educational, 
economic, and civic accomplishments. Iranian youth languish in 
frustration, bereft of the opportunities and freedoms afforded 
to their peers across the world. Ethnic, religious, and sexual 
minorities live in constant fear.
    Conditions in Iran suggest that a Persian Spring is quite 
possible. But Iranians have not so far followed the footprints 
of the Tunisian and Egyptian revolutionaries. One reason for 
this is that the Green Movement is divided and leaderless. But 
the Green Movement faces an even more fundamental flaw. It 
seeks to preserve the very same Islam Republic that oppresses 
it. Regardless, the Green Movement's inherent weaknesses have 
not given way to the total suppression of the democracy 
movement in Iran. The Iranians have increasingly engaged in 
acts of civil disobedience independently of the Green Movement 
and its leadership. They need moral support more than ever 
before.
    The intense U.S. focus on the Iranian nuclear program 
convinced many Iranian democracy activists that the United 
States is solely concerned with the security interest in their 
region rather than the plight of ordinary Iranians.
    I would assert that a more balanced U.S. policy, with a 
greater emphasis on the regime's human rights abuses, could 
counter negative Iranian perceptions of U.S policies and 
intentions.
    The United States has recently begun a shift in this 
direction by supporting the establishment of a U.N. human 
rights monitor for Iran. In addition, the United States has 
sanctioned higher-ranking Iranian security officials for their 
involvement in human rights abuses. However, additional steps 
should be taken. U.S. officials should denounce the regime's 
abuses more vigorously and more often. Stronger condemnations 
from senior U.S. officials, including President Obama, 
Secretary of State Clinton, will be reviewed by Iranian 
democracy activists as a sign of encouragement.
    In tandem they naturally should sanction additional members 
of the Iranian security services, especially top-ranking and 
mid-ranking members of the Islamic Revolutionary Guard Corps. 
and the Basij paramilitary forces.
    Finally, the United States should also strongly question 
the legitimacy of Iran's upcoming parliamentary and 
Presidential elections. The 2009 Presidential election, which 
remains in dispute, effectively taints the results of future 
elections. The Islamic Republic has historically depicted 
elections in Iran as sign that it is a democracy and is 
therefore particularly vulnerable to internal and external 
accusations of legitimacy.
    The Iranian regime faces great challenges today. Its 
survival as a cohesive and functioning system is hardly 
guaranteed. The United States can demonstrate that it is on the 
side of Iranian democrats who may rule Iran one day.
    Again, I thank the subcommittee for the opportunity to 
testify before you today and I look forward to taking your 
questions.
    Mr. Chabot. Thank you very much, we appreciate it.
    [The prepared statement of Mr. Nader follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Mr. Badran, you are recognized for 5 minutes.

 STATEMENT OF MR. TONY BADRAN, RESEARCH FELLOW, FOUNDATION FOR 
                   THE DEFENSE OF DEMOCRACIES

    Mr. Badran. Mr. Chairman, Ranking Member Ackerman and 
distinguished members of the committee, thank you for inviting 
me to today's hearing. I will keep my comments brief and ask 
that my lengthier statement be part of the record.
    We have reached a critical moment in the Syrian revolution. 
Seven months after it erupted, the Syrian protest movement has 
shown remarkable resilience and bravery. There are now 
questions as to whether peaceful protest will be enough to 
dislodge Bashar al-Assad as his regime's brutal repression 
persists and pressure to arm the revolution intensifies.
    Since President Obama's August 22nd statement calling on 
Assad to step down, there has been little high-level movement 
on Syria. The President has publicly shown little personal 
investment in the Syrian uprising. His remarks at the U.N. 
yesterday were the first he has made publicly in months. The 
administration deserves credit for slapping a series of 
sanctions on the Syrian regime. However, it is unclear whether 
new ideas and contingency plans are being developed. Given the 
strategic importance of the Syrian revolution and its impact on 
Iranian influence in the region, U.S. leadership is critical.
    Though they have had some impact, sanctions cannot 
substitute for an integrated American policy guided by clear 
strategic goal. That goal can only be Assad's departure and 
breaking up the Iranian alliance system. At the outset, the 
Obama administration adopted a hands-off approach to the Syrian 
revolution. One reason was deference to Turkey. Reticent to 
take the lead, the administration effectively subcontracted the 
policy to the Turks, who for months urged President Obama not 
to call on Assad to step down.
    To its credit, the administration finally broke with Turkey 
and endorsed the policy of regime change in Syria. It has not, 
however, pressed Ankara to follow suit. Nor has the 
administration convinced Turkey to take punitive measures 
against Assad. In the past 2 days the Turks have said that they 
would be discussing sanctions with the State Department. What 
specific measures they will adopt or when they will do so 
remains to be seen.
    The administration has recently done a commendable job in 
working with the European allies to increase the heat on the 
Syrian regimes, but has not done the same with regional allies 
such as Jordan and Iraq. The Syrian Central Bank recently 
executed a number of cash transfers in Jordan designed to help 
evade future sanctions and potential asset freezes. The Syrians 
have also turned to the Iraqis to secure cheap oil. Convincing 
our Jordanian allies to freeze such accounts and dissuading 
Iraq from extending a helping hand to Assad are but two options 
the administration could pursue.
    The New York Times reported on Monday that the 
administration remains apprehensive about appearing to try to 
``orchestrate the outcome in Syria.'' The absence of U.S. 
Leadership opens the door for regional middle-range powers to 
vie for position and advance their own agendas which could come 
into conflict with U.S. Interests.
    Washington should be quarterbacking the transition and 
directing the actions of players like Turkey and Qatar. Qatar, 
for instance, has recently advanced its own political 
initiative to end the crisis in Syria, but it had to run this 
initiative with the Iranians and assure them that their 
interests in Syria's ``security doctrine,'' meaning its support 
for resistance movements that Iranian supports will be insured. 
Without U.S. leadership, Iranian will fill the role.
    The administration has been working toward a peaceful 
transition to democracy, mainly relying on tools such as 
sanctions, while urging the opposition to unite around a 
platform that all Syrians could endorse. But the mechanism for 
this transition has not been properly articulated. The 
administration's assessment now is that the current stalemate 
could last for a while, increasing the likelihood of violent 
conflict.
    The strategic stakes high, the Iranians note this is a war 
for their position in the eastern Mediterranean. The Obama 
administration needs to frame the Syrian situation in such 
strategic terms and to make it a priority in its regional 
agenda.
    Mr. Chairman, the strategic calculus is simple. An outcome 
other than Assad's ouster would be a blow to U.S. Interests and 
a boost to Iran. The administration should continue with hard 
economic pressure. Specifically, it should pressure regional 
allies to impose sanctions. It should also consider targeting 
banks in the region used by the regime to circumvent sanctions. 
Moreover, the ban on investment in Syria should be expanded to 
include foreign companies. Finally, as the probability of an 
armed conflagration in Syria increases, the administration 
needs contingency plans. Deferring such difficult decisions by 
subcontracting policy to regional players is likely to fail 
again. The U.S. has to take the lead.
    Mr. Chairman, I will conclude. Ensuring the end of the 
Assad regime in Syria must be viewed as an opportunity to break 
the Iranian alliance system, which will do a great deal to 
advance the interests of the United States and its allies in 
the region.
    I thank you again for the opportunity to testify here 
today.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Badran follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. And our final witness here this afternoon will 
be Mr. Alterman, and you are recognized for 5 minutes.

STATEMENT OF JON B. ALTERMAN, PH.D., DIRECTOR AND SENIOR FELLOW 
     OF THE MIDDLE EAST PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Alterman. Chairman Chabot, Ranking Member Ackerman and 
distinguished members of the committee. Syria and Iran have a 
big problem. On the one hand they have crafted strategies that 
cast themselves as the voice of the common man in the Middle 
East, standing up against Western oppression and protecting 
Palestinians. On the other, they are emerging as oppressors of 
their own people, cynical authoritarian holdouts in a world 
increasingly inspired by popular protests against oppressors.
    Now the Middle East is changing. The caricatures they drew 
of other regional leaders are dissolving, as those leaders 
either lead efforts toward reform or are swept away by a tide 
of protests. Meanwhile, the leaderships of Syria and Iran 
themselves have come to typify a rotten status quo that 
manipulates public emotions but does not serve them.
    Shifting circumstances in the Middle East begged the 
question of what the United States should do about it. There is 
an understandable instinct to revel in hostile countries' 
difficulties, to capitalize on their weaknesses, and to exploit 
their contradictions. Few in these populations would mourn the 
fall of their governments, and the United States should do 
nothing to prop them up.
    At the same time, the greatest favor the United States 
could do for these regimes is to somehow make their problems 
into a confrontation with the United States rather than ones 
that arise out of the internal contradictions of these 
countries' own governance. An ability to concentrate attention 
on the United States and a foreign power would be a lifeline to 
these governments, shifting the focus from their own repression 
and allowing them to sound nationalist themes and boost their 
own popular support. An overt U.S. Embrace of opposition groups 
would certainly lead to accusations that these groups are 
agents of the United States or that their success somehow 
serves Israel's interests, thereby reducing their influence and 
their credibility.
    To be clear the United States should not remain passive or 
mute in the face of sustained repression; our history and our 
values call for us to do more. Yet no government looks 
anxiously at finely honed U.S. Statements when its very 
survival is at risk, nor do protesters look to Washington for a 
sign when deciding whether or not to risk their lives in the 
street. Ultimately it is not about us; it is about them, and we 
do a disservice to them when we act as if it is all about us. 
Instead we need to do what we do in the company of other 
governments, especially from the Middle East, which are 
distressed by events in Syria and Iran and have sounded the 
alarm.
    The key strategic asset that these governments have to 
nurture is their legitimacy. Regional voices have far more 
credibility with a targeted population than governments halfway 
around the world. This is not abdicating leadership nor leading 
from behind; rather, it is a quiet and confident leadership 
that arises from the understanding that these governments' 
repression stripped them of their legitimacy, and that in 
today's world it is increasingly hard to maintain control 
merely through repression.
    None of this is to say that anti-Americanism or anti-Israel 
sentiment in the Middle East is about to go away. What we have 
seen in Egypt and elsewhere is an important indicator that many 
of these trends will be with us for some time. But it does 
signal trouble for the particularly murderous and vociferous 
forms of anti-American and anti-Israeli sentiment that these 
governments have tried to nurture through proxies in the Levant 
and elsewhere. I would be the last to forecast the date and 
manner of the change of government in Syria and Iran.
    The Government of Egypt which was a more robust government 
than either Syria or Iran fell in a mere 18 days, but 
dislodging Muammar Qadhafi took 6 months and considerable NATO 
airpower.
    Even so, these systems are increasing frayed. Regional 
trends are clearly moving against them and the demands of their 
own populations are rising. The contradictions of their rule 
are apparent, and protestations in favor of the oppressed ring 
increasingly hollow as it becomes apparent that they oppress 
their own people.
    A dictum of politics is if your opponent is shooting 
himself, don't stop him. We would do ourselves a disservice if 
we threw all the instruments of a national power into hastening 
the demise of these regimes. Such an effort would be more 
likely to have the opposite affect. Because we have been so 
appalled by the actions of these regimes over the last several 
decades, we have only very few ties with them and there is 
little else of value to them that we can jeopardize on our own.
    Our instinct is surely to trumpet our disapproval. Our 
interests require a different strategy, however. The quiet and 
difficult work of building broad coalitions is likely to yield 
much better results than noisy condemnations that can be easily 
tuned out. There is little we can achieve immediately but much 
we must accomplish in the longer term.
    Thank you, sir.
    Mr. Chabot. Thank you very much, Mr. Alterman.
    [The statement Mr. Alterman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. I would like to thank all five of the witnesses 
here this afternoon for what I felt were excellent statements 
from each and every one of you. We appreciate that. Your full 
statements will be made a part of the public record, without 
objection.
    I also note the presence now of the distinguished gentleman 
from the Commonwealth of Virginia, Mr. Connolly, this afternoon 
as well.
    Now we are going to begin our 5-minute questioning and I 
will start with myself, and we will also hold ourselves to the 
same 5 minutes that we held you all to. We may go to a second 
round depending on votes on the floor, which could happen at 
any time.
    Mr. Nader, I will begin with you if I can. In your 
testimony you note that ``The Islamic Republican has portrayed 
U.S. And international policies on the Iranian nuclear program 
as part of an effort to deny Iran both advanced technology and 
its perceived place among the world's great nations. Thus, U.S. 
opposition to the Iranian nuclear program, while necessary 
given the threats posted by a potential Iranian nuclear weapons 
capability, has also had the effect of strengthening the regime 
among its core supporters.''
    Mr. Khalaji, you also I believe raised a similar point, 
noting that it is very important that we convey to the people 
of Iran ``that the Iranian Government organizations primarily 
involved in human rights abuses are the same organizations that 
run the military and the nuclear program.''
    The concern you both raise that the American policy toward 
the nuclear program could inherently weaken our credibility 
with Iranian people is a real and legitimate concern. Both 
issues, however, are central to U.S. interests, and neither can 
nor should be abandoned at the expense of the other.
    Can you and anyone else who is interested suggest how we 
can strike a balance between these two priorities? How can we 
best manage this tension? And I would like to hear from both of 
you if we could, Mr. Nader.
    Mr. Nader. Thank you. I do think there has been for obvious 
and necessary reasons a focus on the nuclear program. It 
presents a fundamental challenge to U.S. and allied interests 
in the Middle East. However, the Islamic Republic has used this 
issue to portray the U.S. policy toward the nuclear program as 
part of an effort against the Iranian people, against Iran's 
perceived rightful place in the Middle East.
    And I do think that recently, as I suggested, there has 
been a shift in terms of focusing on human rights, depicting 
the regimes abuses. I think the United States needs to do more 
of this in terms of striking a balance.
    You mentioned the possibility of a grand bargain between 
the United States and Iran. I do not think a grand bargain per 
se is a possibility at this stage. I don't think we should give 
up efforts of engagement with the Islamic Republic. It is a 
valuable tactic in terms of the United States achieving its 
objectives. I think Iran's total diplomatic isolation benefits 
the regime actually, because it isolates the Iranian people. 
But, again, I think engagement is increasingly an unsuccessful 
strategy, if you will.
    So highlighting human rights is very important. I do think 
that the Islamic Republic is very unstable. It is not going to 
escape the effects of the Arab Spring. To some extent, I do 
think that the 2009 election in Iran influenced the Arab 
populations. The Iranians have been influenced by Arab 
populations in return, and the Islamic Republic is not going to 
last forever.
    We have the opportunity to slow down the Iranian nuclear 
program through sanctions, through political pressure, and 
other means. Various U.S. assessments have shown that an 
Iranian nuclear weapons capability is not eminent.
    So if we come out on the side of the Iranian people and the 
side of Iranian democrats and strike a balance in a U.S. 
policy, we could achieve our objectives in a more efficient 
manner.
    Mr. Chabot. Thank you very much. Mr. Khalaji.
    Mr. Khalaji. It has been 32 years that Iranian Government 
tries to portray the United States as the main enemy of the 
Iranian people rather than an enemy of the Iranian regime's 
policy. So it is very important to strengthen public diplomacy 
for the Iranian people.
    Since we don't have a diplomatic relationship with Iran and 
we don't have physical presence in Iran, it is very important 
to capitalize on different sources of the public diplomacy we 
have. Especially I think it is very important to raise the 
budget for the Persian section of Voice of America and try to 
make it more professional and convey our messages to Iranians. 
It is very important to communicate with the Iranian people and 
explain to them if we are critical of Iranian policy, why is 
this criticism and why is the international community so 
concerned about Iran's nuclear ambition.
    Also we have to be more supportive to different groups of 
human rights activists in the United States and in Europe who 
work on Iran issue. It is very important that people-to-people 
exchanges, it is important to facilitate visas for Iranian 
citizens. You know that Iranians are among the few nations in 
the world that cannot get visa for the United States very 
easily. And when they get it, it is only one entry. The 
initiation by the State Department to give some--to let Iranian 
students to get multiple visa was very important, and it sends 
a message to the Iranian people that United States is a friend 
with Iranians, and only we have problem with the government.
    Mr. Chabot. Thank you very much. My time has expired. I 
would like to yield now 5 minutes to the gentleman, also from a 
commonwealth, the Commonwealth of Massachusetts. I think four 
of our States are commonwealths and two of them are represented 
here today.
    Mr. Connolly. Mr. Chairman, I come from both of them. I was 
born in Boston.
    Mr. Chabot. There you go. Amazing. What do you have against 
States anyway?
    The gentleman from the Commonwealth of Massachusetts, Mr. 
Keating, is recognized.
    Mr. Keating. Thank you, Mr. Chairman. Quickly I just want 
to go back with Mr. Bedran just to clarify something, I'm not 
sure. You used the term that the U.S. should direct Turkey in 
terms of joining with us in our efforts in Syria and with Iran. 
Could you describe the means by which we could do that or what 
actions we could take in that regard?
    Mr. Badran. Thank you. I did say that we should be 
directing the actions of Turkey and Qatar in the sense as we 
saw in August, as recently as early August, the Turks took an 
initiative on their own to go to Syria to talk to Assad, extend 
him a 2-week window with which to ostensibly change his 
behavior, after we had already come out and said he has lost 
his legitimacy and so on. So that kind of action undermined our 
policy at the time.
    What tools do we have? Obviously, quiet diplomacy among 
allies is clearly the most effective, but also the Turks have 
been asking the United States for a number of asks with regards 
to their fight with the PKK, for instance. In Iraq, they have 
asked for predator drones to be based in Turkey to use against 
the PKK, and other intelligence cooperation.
    So there are multiple avenues that we share with the Turks 
that could be easily used to establish a mutual relationship in 
that regard.
    Mr. Keating. Well, thank you. This question to any of 
panelists. One of the concerns, despite the despicable 
treatment Syria has shown to the demonstrators, has been the 
treatment and detainment of innocent journalists at the hands 
of the Assad regime.
    Can the United States do more to use its leverage to 
protect foreign and domestic journalists on the ground, to help 
make sure that there is free press--a freer press? Certainly 
the second part of the question is, do you think the social 
media can be helpful in that regard, too? 
    Mr. Badran. It would be great to be able to assist foreign 
journalists in Syria were they able to go to Syria. The problem 
is the regime has shut down the ability of the foreign 
observers except the ones that it picks and chooses. They even 
invited CNN reporters and others to come in, but they have very 
severely curtailed their ability to move.
    With regard to domestic journalists, they have definitely 
born the brunt of the repression, those who have actually come 
out. But what is interesting about the Syrian uprising is that 
it has developed really remarkable creativity and other 
creative methods to lay out its version of the events or the 
facts of the brutality of the regime to the outside world, 
using, as you mentioned, the social networks and YouTube and 
Facebook and other such instruments. And that would be one of 
the ways we could help them by establishing, say, WiFi zones in 
neighboring countries that could extend their ability to 
continue to do that in other secure communications so they 
could continue to report.
    Mr. Keating. Good point. Thank you.
    Mr. Alterman. Mr. Keating, one of the things that I think 
has been of increasing concern in the last several weeks is the 
number of reports of Western countries who have sold equipment 
and software to intelligence services in the Middle East, which 
were then used to report--monitor all these groups. There was a 
report recently about a British firm who sold equipment to the 
Government of Egypt. Certainly with Libya, we have understood 
the extent of the monitoring.
    I am sure that an open hearing is not the place to discuss 
it, but I certainly would hope that people in Congress would 
think about what ways Congress has to the influence the ability 
of authoritarian regimes to use these tools unmonitored.
    Mr. Keating. The deep packet, technology.
    Mr. Alterman. Absolutely.
    Mr. Keating. Thank you. I don't think I have much time for 
response, but just the apparent contradiction with the Arab 
lead, where they joined in a multilateral action in Libya, but 
their inability to act here.
    Any thoughts on how that could be encouraged at all or if 
that is at all in the offing?
    Mr. Alterman. I think it is much harder because Muammar 
Qadhafi had always walked away from his Arabism, only to come 
back. Bashar al-Assad has always tried to wrap himself in his 
Arabism.
    With that being said, I think we have seen a number of 
indicators in the last several months. Certainly the Gulf 
States, Saudis, and others have grown increasingly alarmed at 
the direction that Bashar al-Assad has taken. I think you are 
not going to see the same repudiation that you saw of Muammar 
Qadhafi, because in many ways it followed many episodes of 
repudiation by Qadhafi himself, but certainly there are 
opportunities to get more solidarity on a number of issues from 
the Arab league that I think we should actively pursue.
    Mr. Keating. Thank you. My time has expired.
    Mr. Chabot. Thank you very much. Thank you. The gentleman's 
time has expired. The gentleman from Virginia, Mr. Connolly, is 
recognized for 5 minutes.
    Mr. Connolly. Thank you very much, Mr. Chairman.
    I am going to ask all of you a simple question--I know it 
is not a simple analysis--and then I want to talk about Iran. A 
simple question rating high, medium, low, the probability of 
regime change in Syria given the events going on. Mr. Singh, 
why don't we start with you?
    Mr. Alterman. What time frame, Mr. Connolly?
    Mr. Connolly. You can pick one. Let's say in the next 3 to 
6 months. But if you want to say a year, I will need a year, 
that is fine too. Mr. Singh.
    Mr. Singh. I would say medium. That sounds like a safe 
response. What we haven't seen so far--we have seen great 
courage by the protestors coming out, facing the bullets every 
day, which is a remarkable decision to make. I think we need to 
recognize that. What we haven't seen yet is what we saw very 
quickly in Libya, which are sort of the high-level defections, 
the real cracks forming in the regime, and that is frankly what 
I would look for.
    My hope is that it falls tomorrow, but I think so far it 
has proven that it is able to hold itself together so far. And 
there are lots of reasons for that which I won't go into right 
now.
    Mr. Connolly. Okay. Mr. Khalaji.
    Mr. Khalaji. I am not an expert on Syria.
    Mr. Connolly. Thank you very much. Mr. Nader?
    Mr. Nader. I would like to pass on that, please.
    Mr. Connolly. Mr. Badran.
    Mr. Badran. I believe that the Assad regime will fall. The 
assessment now of the United States administration is that he 
has a good chance of hanging on for a while, although he has no 
ability to come back from the trajectory he is on. It all 
depends on the course that the revolution is going to take. For 
now it has been peaceful.
    There is a lot of, you know, agitation now and questions 
whether it should be armed, moving forward. And this is the 
thing that I raised, the issue that I raised with regard to the 
mechanism that the administration has in mind for how to move 
forward. As Mike said, basically now the hope is that there 
will be cracks in the regime, a unified opposition that could 
rally support from members within the regime and the elites, 
and hopefully somehow that will translate into a transition. 
Unfortunately, there is a good possibility that it doesn't work 
out that way and that it goes into a much more violent course, 
in which case we will see regional players involved.
    Mr. Connolly. But in any case, your bet is we will see 
regime change?
    Mr. Badran. I do believe so.
    Mr. Connolly. Okay. Mr. Alterman.
    Mr. Alterman. I think the odds are low in the near term. I 
think they get up as we move out the timeline. Because I know 
you well enough from our working together 25 years ago, you 
like the creative stuff. I think at some point--see, it is 
true. At some point it is not unlikely there is a military coup 
in Syria. I don't know what precipitates it. I don't know what 
part of the military does what. I don't know if there is any 
external involvement in any of this. But I would say it is very 
likely sometime over the next 5 years that there is a different 
government in Syria, probably over the next 2.
    Whether they are much different in their orientation is 
unclear, because it seems to me that a huge number of the 
external actors, including the Israelis, would actually be okay 
with a government that is not terribly, terribly different from 
the government of Bashar Al-Assad in its orientation toward 
regional foreign policy.
    Mr. Connolly. Thank you. And if I may, Dr. Alterman, start 
with you on this one. What are we to make of the apparent 
friction, if not break, between the ruling Muslim clerics in 
Tehran and President Ahmadinejad? After all, he began as their 
guy. And we see all kinds of political statements and actions 
seem to rein him in and maybe even isolate and embarrass him. 
Or is that just wishful thinking by a western press?
    Mr. Alterman. I know my friends well enough that I am just 
going to talk very briefly, and Mehdi and others can talk 
eloquently about this. It seems to me two things are going on. 
One is Mahmoud Ahmadinejad isn't who he was when he first came 
up. They feel he has gotten too big for his britches, that he 
doesn't understand what his role is, and there is an effort to 
provide a comeuppance.
    It seems to me as well, there is a genuine possibility of a 
split in the clerical establishment in Iran, that it is not 
just Ahmadinejad against the clerics, to some extent it is 
cleric against cleric. And again, if you want to be creative 
and look forward, it seems to me the most likely cause of a 
change of Government in Iran is some sort of split in the 
clerical establishment which takes down the legitimacy of this 
regime which he has been clinging to since the Islamic 
Revolution.
    Mr. Connolly. Can I just interrupt you 1 second? I really 
think this is an important question, Mr. Chairman, but I do not 
wish to impose on the chair. Would he indulge the panel to be 
able to answer this question?
    Mr. Chabot. Yes.
    Mr. Connolly. I thank the chair. Thank you, Mr. Nader.
    Mr. Nader. I do think that the divisions between 
Ahmadinejad, President Ahmadinejad and the Supreme Leader are 
very serious and indicate the deep trouble the Islamic Republic 
is in today. President Ahmadinejad is challenging the Supreme 
Leader's authority. And the Supreme Leader, Ayatollah Khamenei, 
has been challenged from the left and the right. And this shows 
that the Islamic Republic as a system lacks legitimacy.
    When you have somebody like Ahmadinejad, who owes his 
Presidency to a large degree to Khamenei, challenge him in this 
fashion shows that even figures like Ahmadinejad realize that 
the system is in trouble. And I think this provides 
opportunities for the United States. Not direct action 
necessarily, but it shows that Iran, which is I think sometimes 
portrayed as a more--as a stronger form of government than it 
is, faces a very uncertain future.
    Mr. Khalaji. I have a structuralist understanding of Iran 
politics. I think that the fate of Mr. Ahmadinejad is not much 
different than the fate of other Iranian Presidents. Even 
Ayatollah Khamenei, when he was President in the first decade 
of Islamic Republic, he had lots of problems with the Supreme 
Leader at that time, and he was weakened by different 
mechanisms implemented by the Supreme Leader.
    All Iranian Presidents come to office with an ambitious 
agenda, whether economic or political, reformist or hardliner, 
but they leave the office very, very weak. And the story of Mr. 
Khatami, the foreign former President, and the story of 
Rafsanjani is repeating again this time. The hard core of power 
in the Islamic Republic is the Supreme Leader. Supreme Leader 
relies on Revolutionary Guard and armed forces, intelligence, 
and judiciary. That would not change. And I think as long as 
the Islamic Republic is in place, we would not see any major 
political shift in Iran.
    Mr. Singh. I will just say I am in large agreement with 
Mehdi. I think that the Iranians in many ways are their own 
worst enemy. I think that President Ahmadinejad is a good 
example of that. He is his own worst enemy. He also has made 
life very difficult for the Iranian regime in many ways.
    I do think, though, that we tend to focus too much on 
President Ahmadinejad. And it is worth looking underneath the 
surface at what has actually happened inside the regime. Their 
base of support inside Iran, inside Iranian elites, has 
narrowed. It is a regime that now relies largely on simply the 
hardliners and the IRGC and the broader security apparatus, and 
you don't have the reformists and the traditional conservatives 
inside the inner circle anymore. To me this is both dangerous 
for the regime itself, because it suggests a regime that is 
more brittle and has less support. It is also dangerous for the 
world and for us, however, because that element which still 
supports the Supreme Leader is the most dangerous element, the 
most militarized element.
    Mr. Chabot. Did you get everybody, Gerry?
    Mr. Connolly. Pardon me?
    Mr. Chabot. Did you get everybody?
    Mr. Badran. I am going to pass.
    Mr. Connolly. Thank you very much. And thank you, Mr. 
Chairman, for your indulgence.
    Mr. Chabot. Thank you very much. We will go to a second 
round. And I will recognize myself for 5 minutes.
    Let me begin, if I could give you maybe a minute, minute 
and a half, Mr. Singh, I cut you off right at the beginning, 
and you were getting ready to say here is what the United 
States can do to meet these challenges, one, two, three, or 
whatever. Now I would like to hear what we can do to meet those 
challenges--and if you can recall what the challenges were.
    Mr. Singh. There are so many. Thank you, Mr. Chairman. I 
will say I want to say something in response to your earlier 
question about balance. And I think that balance is the wrong 
way for us to think about our policy with respect to Iran. I 
don't think it is a matter of there is a spectrum between the 
nuclear issue on the one hand and human rights on the other. I 
think we need to be fully focused on both issues.
    You know, the goal is not to get, frankly, the Iranian 
opposition on board with our agenda. They, frankly, will not 
have the same view we have on the nuclear issue. And frankly, 
Mir Hossein Mousavi, the opposition leader, probably scored 
some political points by taking a position which was against 
ours on the nuclear issue.
    Our goal really is to just help them do what they want do 
anyway, which is to topple their regime, frankly, which is to 
change the nature of the system of government in Iran. And I 
think we can do both.
    My points about sort of what should we be doing with Iran 
and Syria are fourfold. And I will just go through them 
extremely quickly so my colleagues have a chance to talk.
    First, I do think we need to use our bully pulpit, the 
White House, the State Department, Security Council, to shed 
greater light on what is happening inside these countries. You 
know, I take a slightly different view from some of my fellow 
panelists here that sanctions are great, but they are--frankly, 
it is very hard to reach many of these individuals through 
sanctions. And I think we need to be frequently making 
statements about individual cases, individual situations of 
human rights activists and dissidents inside these countries.
    Second, I think we need to try to break the control that 
these regimes exercise over information. And this gets to a 
couple of the questions which have been asked. And that has 
both offensive and defensive components. I think we need to 
push back on the propaganda effort of these regimes, which is 
now extremely aggressive. And we need to deny them space on 
satellites and so forth to the extent we can. But we also need 
to give people inside these countries, actors inside these 
countries, the tools they need. Frankly, the Obama 
administration has done some good things on that front, and 
that deserves more support and more funding to the extent it is 
available.
    Third, I think we need to deny the Iranian and Syrian 
regimes the tools of repression to the extent we can. And here 
I agree with Dr. Alterman about trying to deny them 
technologies, and trying to provide technologies to the 
activists.
    And then fourth, very simply, I think we need to deny these 
regimes international cover. They seek support outside when 
they can't find it inside or in their region. So they seek 
support at the United Nations, in multilateral institutions, 
with proxies and allies and so forth, and we need to be very 
aggressive all over the world in pushing back on that. Thank 
you.
    Mr. Chabot. Thank you very much. I guess there is about 
enough time to get one more question in here. Mr. Badran, in 
your testimony you note that, and I will quote this, ``In sharp 
contrast with its handling of the Egyptian revolution, the 
Obama administration appeared very reticent to take the lead on 
Syria. Instead, it effectively subcontracted the policy to 
Turkey, under the belief that Ankara had the most influence 
with Assad, and could persuade him to respond to the 
protesters' demands. It was a critical mistake to cede 
leadership to the Turks, just as it was in error to assume they 
shared our interests.''
    Could you expand on that a bit? How do our interests and 
those of the Turks, especially vis--vis Syria, diverge? And 
what has been the consequence of this retreat of American 
leadership? And I would invite your response, and maybe yours, 
Mr. Singh, as well on this, if you would like to comment on 
that.
    Mr. Badran. Thank you, Mr. Chairman. I believe that the 
assessment by the administration on Turkey's--the extent of 
Turkey's influence and leverage, and also the misassessment of 
their vulnerability with regard to Syria, was at the basis of 
their ceding the leadership to Turkey. Meaning they thought 
that because Turkey had established such a close relationship 
because of its engagement with Syria--I mean Syria was really 
at the heart of Turkey's <greek-l>quote-unquote deg.``no 
problems with neighbors,'' or zero problems with neighbors 
policy. And Prime Minister Erdogan and Assad developed even a 
close friendship. So it was assumed that somehow Turkey could 
persuade him to change course and that its soft-power 
<greek-l>quote-unquote deg.``influence'' would be able to make 
him reform and so on. And the administration went with that for 
a while.
    It was a critical error from the beginning. On the one 
hand, and as we saw, Turkish soft power really was completely 
irrelevant in this case. And for the last 6, 7 months now, we 
have not yet seen a single actual concrete punitive measure by 
Turkey against Assad, economic or military or otherwise until 
now. Now we are starting to hear that Turkey may consider doing 
sanctions and so on. So that was the error, I believe.
    Mr. Chabot. Okay. Thank you very much.
    Mr. Singh, would you comment very briefly on that, because 
my time is exhausted at this point, so like 30 seconds.
    Mr. Singh. Thanks, Mr. Chairman. I think that Turkey is 
simply not in a position to assemble or lead any kind of 
regional or international coalition on Syria. That is something 
the United States is going to have to do. And we are going to 
have to be at the front of that effort. And there is a trade-
off here between trying to seek regional and international 
cover, and being willing to stick our necks out and provide 
leadership to this effort. And I think we have to do the 
latter.
    You know, to the member's point about waiting for the Arab 
League, we would be waiting for the Arab League for a very long 
time to provide us cover on Syria. And I think the same is true 
with Turkey. So U.S. leadership is really needed here.
    Mr. Chabot. Thank you very much. My time has expired. And I 
would go back to the gentleman from Virginia, Mr. Connolly, if 
he would like an additional 5 minutes.
    Mr. Connolly. I thank the chair. Did the chair want to 
finish his line?
    Mr. Chabot. No, I am good.
    Mr. Connolly. All right. Let me ask, what should we read in 
recent statements and actions by the Turkish Government? And 
let me preface it by saying that, you know, we are elected 
officials, sometimes called politicians. We surely can 
understand domestic political pressures and why somebody says 
or does something that may not be for international 
consumption. Nonetheless, we are big boys and girls, and we 
understand that our words can have consequences nonetheless.
    What should we read in recent Turkish actions and words? 
And how serious do you think the breach between Turkey and 
Israel is? I happen to believe a serious breach between the two 
is very harmful to Middle East peace prospects, and that the 
relationship is critical for the United States and for the two 
partners. Dr. Alterman, begin with you.
    Mr. Alterman. Thank you. I think Turkey is trying to 
reposition itself. Turkey had been a fellow non-Arab power in 
the Middle East, trying to get into Europe, and saw itself as a 
natural ally of Israel. As Turkey has been rethinking its role 
in the Middle East, its relationship to the Middle East, its 
relationship to Europe, I think it has decided to rethink its 
relationship to Israel, among others, not because it wants to 
cut its relationship with Israel, but it wants to be less 
close. I think what we have seen in many ways is an alignment 
less toward Israel, more toward Saudi Arabia, which in the case 
of Syria and Iran is not all against U.S. interests. Because 
having Turkey, a country on the border of Syria and Iran, with 
trade with Syria and Iran, a lot they can hold hostage to Syria 
and Iran, creates an opportunity to have tremendous influence 
on the calculations of these governments as they think about 
the relationship to the outside world.
    I don't think Turkey is a lost cause. I think Turkey is 
repositioning itself. I think Turkey is perceived, in the 
absence of a strong government in Iraq, in the absence of a 
strong government in Egypt, is perceived as the only potential 
Middle Eastern power which can really help the Saudis, in 
expanding power in the Middle East. I think we have to guide 
the development of Turkey's outreach into the Middle East, 
partly looking at how its relationship with Saudi Arabia 
develops, partly how its relationship to Egypt develops. I 
think Turkey is going to be a growing factor in the Middle East 
over the next decade or so. And we are well to try to engage 
with that in a constructive way rather than getting into a 
name-calling exercise that tries to have them respond to our 
diktats. At a time when we had much more power in the Middle 
East, we tried to have our troops go into Iraq from Turkey, and 
we were unsuccessful.
    Mr. Badran. Thank you. I think something that Mr. Singh 
said earlier is very pertinent here, that Turkey is a regional 
power, but Turkey is not a great power. But nevertheless, 
Turkey has self-conceptions of itself as a great power. And the 
problem that Syria exposed with regard to Turkish foreign 
policy was how fragile its central doctrine of zero problems 
with neighbors was.
    If you now survey Turkey's relationships with Cyprus, with 
Greece, with Israel, with Syria, and to a certain extent 
uneasiness with Iran, you see that you have a set of failures, 
or definitely much more failure than success in all of them. So 
a lot of this is due to Turkish domestic constraints, the 
civil-military relationship, the very deep structural identity 
issue that Turkey has, is trying to redefine itself, 
specifically with regard to its relationship with its Kurdish 
minority.
    And as now Erdogan and the AKP government lead a campaign 
against the PKK and Iraq, for instance, this is coming to the 
fore, exposing the rifts inside Turkish society. So I think to 
make Turkey into a regional pillar has to be very delicately 
handled, because it is a very vulnerable regional ally.
    Mr. Nader. Turkey increasingly sees itself as a major 
regional power. And especially under the Justice and 
Development Party, Turkish foreign policy has changed quite a 
bit in response to domestic issues. But I do think that Turkey 
and its ruling party now have this vision of perhaps a new 
Ottoman policy, that Turkey can have influence in the Middle 
East in areas where it ruled before, whether in Syria and Iraq, 
or in Libya.
    I do think that sometimes our interests converge, and 
sometimes they diverge. Turkey is a NATO ally, but at the same 
time it has used hostility toward Israel in the region to gain 
popularity among the Arab populations. In some ways, it may be 
even trying to take Iran's place as one of the key players on 
the Israeli-Palestinian issue. At the same time, as it 
challenges Iran, it has strengthening relations with Iran, 
economic relations, security relations. So this shows in a lot 
of ways that, although Turkey is a U.S. ally, its path may 
diverge from our interests in the future.
    Mr. Chabot. Okay.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired. Without 
objection, members will have 5 days to submit statements or 
questions for the record, or make revisions thereof.
    I want to thank this very distinguished panel for their 
statements this afternoon and answering the questions. We 
appreciate it. You have given us, I think, tremendous insight.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
